<html>
<title> - THE NEED TO STRENGTHEN INFORMATION SECURITY AT THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   THE NEED TO STRENGTHEN INFORMATION
            SECURITY AT THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2005

                               __________

                            Serial No. 109-9

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-902                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

         Subcommittee on Management, Integration, and Oversight

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida, Ranking 
John Linder, Georgia                 Member
Tom Davis, Virginia                  Edward J. Markey, Massachusetts
Katherine Harris, Florida            Zoe Lofgren, California
Dave G. Reichert, Washington         Sheila Jackson-Lee, Texas
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California Ex       Bennie G. Thompson, Mississippi Ex 
Officio                              Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight.....................................     1
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight.........................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................    21
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security
  Prepared Statement.............................................     3
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    19
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    18

                               WITNESSES
                                Panel I

Mr. Steven I. Cooper, Chief Information Officer, Department of 
  Homeland Security..............................................    15
Mr. Gregory C. Wilshusen, Director, Information Security Issues, 
  Government Accountability Office
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                Panel II

Mr. Mark MacCarthy, Senior Vice President, Public Policy Visa 
  U.S.A.
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Marc J. Zwillinger, Partner, Sonnenschein Nath & Rosenthal 
  LLP
  Oral Statement.................................................    27
  Prepared Statement.............................................    29


                         THE NEED TO STRENGTHEN
                      INFORMATION SECURITY AT THE
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Thursday, April 14, 2005

                          House of Representatives,
                        Subcommittee on Management,
                        Integration, and Oversight,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:38 p.m., in 
Room 210, Cannon House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cox, Reichert, Jackson-
Lee, and Meek.
    Mr. Rogers. [Presiding.] The hearing will come to order.
    I would like to first welcome our witnesses today and thank 
them for taking the time out of their full schedules to be with 
us on such short notice. The purpose of today's hearing is to 
review the deficiencies with the Department of Homeland 
Security's current information security program and what steps 
need to be taken to improve the overall performance of this 
program.
    The Office of Management and Budget submitted a report 
dated March 1, 2005, to Congress on how well Federal agencies 
are doing in complying with the Federal Information Security 
Management Act of 2002, known as FISMA. Based on this report, 
last week, the Government Reform Committee, which is chaired by 
our colleague on this subcommittee, Congressman Tom Davis, 
issued its latest Federal Computer Security Report Card which 
gave a grade of D+ to the whole government, but a grade of F to 
the Department of Homeland Security.
    While the report of the Office of Management and Budget 
recognized some information security improvements in the 
Department of Homeland Security, the Department received the 
same failing grade for 2004 that it received for the previous 
year.
    The Department clearly has many challenges facing it, both 
outside and inside the area of information security. Given the 
special and unique mission of the Department to utilize 
sensitive information to protect our country, the area of 
information security is an area in which the Department should 
be a good example, not a poor one. The Department needs to do a 
better job protecting its own information systems while at the 
same time it protects the information technology infrastructure 
of the United States against cyberterrorism.
    The subcommittee recognizes the Department is implementing 
a number of initiatives to improve its information security. 
For example, the Department is working on a baseline inventory 
of all systems that can currently be categorized as secure 
systems under FISMA guidelines. The Department is also aiming 
to complete certification and accreditation of all these 
information systems by the end of Fiscal Year 2006.
    These are steps in the right direction, but the Department 
needs to do much more to improve its grade from an F. The 
changes that need to be implemented to maintain a high standard 
of information security will improve or involve a long-term 
commitment and significant effort by the Department and the 
many entities within the Department. They simply must work 
together to achieve the common goal of department-wide 
information security.
    Now, this is no easy task, given that there are 22 legacy 
agencies, many of which brought with them their own IT systems. 
Today, we will discuss the importance of information security 
programs and the status of implementation at the Department of 
Homeland Security.
    On our first panel, we will hear from a senior official 
with the Government Accountability Office about current 
deficiencies in the Department's information security program 
and what more needs to be done to fix the problem. We also are 
pleased to have the Department's Chief Information Officer on 
this panel to answer questions that the Members may have today.
    Our second panel will include two experts on what the 
private sector is doing to secure information systems. Their 
insights on lessons learned will be helpful as we evaluate what 
more the Department of Homeland Security needs to do to 
strengthen its own information security systems.
    I once again thank the witnesses for joining us today and 
look forward to their testimony on this important topic.
    And now I yield the floor to my friend and colleague from 
Florida, Mr. Meek.
    Mr. Meek. Thank you very much, Mr. Chairman.
    I want to thank our witnesses for being here today. Over 
the past couple of months, high-profile invasions into computer 
systems of prominent data brokerage firms have--firms that have 
the trust of information security has been broken into, into 
the national spotlight. The invasions of ChoicePoint and 
LexisNexis database were not only descriptive, but also was 
wide-open to full-scale theft of identity theft.
    The citizens across the country of the United States are 
very, very concerned about these revelations that have taken 
place over recent days. I can tell you that many of the issues 
that we have to protect, not only in the department but also in 
the private sector, has a lot to do with American life, 
commerce, education, governance, and of course, protecting our 
country.
    Imagine that the hijackers or terrorists looking to conceal 
their identities and the database that they infiltrated. They, 
also, as it relates to going into--if they were to also go into 
the Department of Homeland Security, US-VISIT, or Secure Flight 
program, a single government infiltration could be a disaster.
    What protections do we have in place to assure that vital, 
not only secret, but tracking information, is actually secure? 
The Federal Information Security Management Act, commonly 
referred to as FISMA, which was established in 2002, is 
supposed to assure that all government agencies establish and 
enforce policies that could keep information secured. FISMA 
requires federal agencies to secure, not only their information 
systems, but the information itself.
    However, 3 years later, the federal government continues to 
lag behind the private sector in designing and implementing 
information systems. In fact, the House Government Reform 
Committee gave the federal government, which was mentioned 
earlier, a D+ on security on the most recent federal computer 
security scorecard. Even though seven agencies received an F, 
the one given to the Department of Homeland Security for the 
second year in a row is especially troubling.
    How can DHS fulfill its role in leading federal agencies in 
cybersecurity and also the private sector? Any compromise of 
that data would be a disaster.
    I look forward to hearing from our witnesses as it relates 
to how we can secure the homeland, not only from the 
department, but from also from the GAO. I am pretty sure that 
the findings in this hearing and as this committee moves forth 
in protecting the real sensitive information of protecting our 
country will be used--the information that we receive today 
will be used to protect future generations.
    So I look forward to the testimony.
    And, Mr. Chairman, I am glad that we were able to schedule 
this hearing to hear from these witnesses.

 Prepared Statement of the Honorable Bennie Thompson, a Representative 
    in Congress From the State of Mississippi, and Ranking Member, 
                     Committee on Homeland Security

    Thank you, Mr. Chairman; Ranking Member Meek. I am pleased to be 
meeting today to review the Department's efforts to improve the 
security of its data and systems under the Federal Information Security 
Management Act, or FISMA.
    The Department of Homeland Security is responsible for leading the 
Federal effort to secure cyberspace. That is why it is essential that 
the Department have their data and systems security 'house' in order. 
It is unacceptable that the leader of our Federal cybersecurity efforts 
received one of the lowest grades on the House Government Reform 
Committee's 2004 report card on cyber security within federal agencies. 
The Department must lead by example--how can we expect the private 
sector to secure its data and systems if the government cannot secure 
its own.
    We have seen what happens when an entity fails to adequately 
protect the integrity of its data from inappropriate access. The 
results can be disastrous.
    For example, ChoicePoint had business system failures that resulted 
in the leaking of 145,000 records containing personal private 
information. Just two days ago, LexisNexis databases were hacked and 
the reported loss of data now affects ten times the number of consumers 
than originally thought.
    I look forward to today's testimony on how the ``real world'' is 
implementing cyber security.

    Mr. Rogers. I thank the Ranking Member for that statement.
    I would also remind members that they can submit statements 
for the record over the next several days.
    The Chairman now calls the first panel and recognizes Mr. 
Greg Wilshusen, Director of Information Security Issues, GAO.
    And the Chair also acknowledges the appearance of Mr. 
Steven Cooper, Chief Information Officer for the Department of 
Homeland Security, who is available to answer questions, but I 
recognize on such short notice was not able to put together a 
formal statement.
    We look forward to hearing your answers to questions.
    But, Greg, if you will go ahead and start, I would 
appreciate it.

 STATEMENT OF MR. GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION 
       SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Mr. Chairman, Ranking Member, I am pleased 
to be here today to discuss the Department of Homeland 
Security's efforts to implement the requirements of the Federal 
Information Security Management Act of 2002, or FISMA.
    This act requires the department to develop, document and 
implement an agency-wide information security program that 
provides security for the information and information systems 
that support the operations and assets at the department, 
including those provided or managed by another agency or 
contractor.
    This program is to include eight components, such as 
periodic assessment of risk and periodic testing and evaluation 
of controls. FISMA also requires DHS and the inspector general 
to report each year on efforts to implement this program.
    Mr. Chairman, my bottom-line message today is that 
continued efforts are needed to sustain progress made by the 
department in implementing the requirements of FISMA. In my 
testimony today, I will note areas where the department has 
made progress and those areas where challenges remain.
    In its Fiscal Year 2004 report, the department noted that 
it continued to make significant progress in implementing key 
information security requirements. For example, it reported 
that the percentage of its information systems that have been 
certified and accredited rose 24 percent to 68 percent.
    System certification and accreditation is a process by 
which agency officials authorize systems to operate. It is to 
include a security assessment of the management, operational, 
and technical security controls in the system.
    As another example, the percentage of employees and 
contractors who receive security awareness training increased 
71 percentage points in the Fiscal Year 2004 to 85 percent 
overall.
    However, the department and the IG also reported several 
areas where implementing effective information security 
practices remains a challenge. For example, the IG assessed the 
quality of the department's certification and accreditation 
process as poor.
    The IG noted that the process was not consistently 
performed across the department and there were instances where 
certified and accredited systems lacked key security documents, 
such as up-to-date security plans, a current risk assessment, 
and contingency plans. As a result, DHS performance data may 
not accurately reflect the status of its efforts to implement 
this requirement.
    As another example, the department reported the 79 percent 
of its systems did not have a tested contingency plan. These 
plans provide specific instructions for restoring critical 
systems, business processes, and information in the event of a 
disruption of service.
    The testing of contingency plans is essential to 
determining whether the plans will function as intended. 
Without testing, agencies can have only minimal assurance that 
they will be able to recover their mission-critical systems and 
processes in the event of an interruption.
    In addition, DHS faces other challenges in implementing 
FISMA requirements. The department is required to have a 
complete and accurate inventory of its major systems. However, 
DHS reported that it did not have a complete and accurate 
inventory in either Fiscal Year 2003 or 2004. Without reliable 
information on inventories, DHS and the Congress cannot be 
fully assured of the department's progress in implementing 
FISMA.
    FISMA also requires DHS to develop a process for planning, 
implementing and documenting remedial actions to address any 
deficiencies in its information security policies, procedures 
and practices. However, in its 2004 FISMA report, the IG noted 
that the seven of nine major organizational elements lacked the 
documented plan of action and milestones. As a result, the IG 
could not verify that all IT security weaknesses were included 
in the plan.
    Mr. Chairman, this concludes my opening statement. I look 
forward to your questions.
    [The statement of Mr. Wilshusen follows:]

             United States Government Accountability Office

                          INFORMATION SECURITY

Department of Homeland Security Faces Challenges in Fulfilling 
                    Statutory Requirements

   Prepared Statement of Gregory C. Wilshusen, Director, Information 
                            Security Issues

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss efforts by the Department of Homeland Security 
(DHS) to implement requirements of the Federal Information Security 
Management Act of 2002 (FISMA).\1\ For many years, we have reported 
that poor information security is a widespread problem that has 
potentially devastating consequences.\2\ Accordingly, since 1997, we 
have identified information security as a governmentwide high-risk 
issue in reports to Congress--most recently in January 2005.\3\ 
Concerned with accounts of attacks on commercial systems via the 
Internet and reports of significant weaknesses in federal computer 
systems that made them vulnerable to attack, Congress passed FISMA, 
which permanently authorized and strengthened the federal information 
security program, evaluation, and reporting requirements established 
for federal agencies. Under FISMA, agencies are to report annually to 
the Office of Management and Budget (OMB) who issues guidance for that 
reporting.
---------------------------------------------------------------------------
    \1\ Federal Information Security Management Act of 2002, Title III, 
E-Government Act of 2002, Pub. L. No. 107-347, December 17, 2002.
    \2\ GAO, Informaton Security: Opportunities for Improved OMB 
Oversight of Agency Practices, GAO/AIMD-96-110 (Washington, D.C.: Sept. 
24, 1996).
    \3\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, D.C.: 
January, 2005).
---------------------------------------------------------------------------
    In my testimony today, I will summarize the reported status of 
DHS's implementation of FISMA, including areas of progress and 
continuing challenges.
    In conducting this review, we analyzed and summarized DHS's fiscal 
year 2003 and 2004 reports to Congress on FISMA implementation. We also 
reviewed and summarized the fiscal year 2004 FISMA reports for 24 of 
the largest federal agencies and their Inspectors General (IGs). In 
addition, we reviewed standards and guidance issued by Office of 
Management and Budget (OMB) and the National Institute of Standards and 
Technology (NIST) pursuant to their FISMA responsibilities. Finally, we 
reviewed OMB's 2004 report to Congress on the implementation of FISMA 
governmentwide.\4\ We did not validate the accuracy of the data 
reported by DHS, the other 23 CFO agencies, or OMB, but did analyze the 
IGs' fiscal year 2004 FISMA reports to identify any issues related to 
the accuracy of agency-reported information. We performed our work from 
October 2004 to March 2005 in accordance with generally accepted 
government auditing standards. In addition, we continue to perform on-
going work on DHS's management of information security.
---------------------------------------------------------------------------
    \4\ Office of Management and Budget, Federal Information Security 
Management Act (FISMA) 2004 Report to Congress (Washington, D.C.: March 
1, 2005).

Results in Brief
    DHS has made progress in implementing key federal information 
security requirements, yet it continues to face challenges in 
fulfilling the requirements mandated by FISMA. In its fiscal year 2004 
report on FISMA implementation, DHS highlights increases in the 
majority of the key performance measures (developed by OMB to track 
agency performance in implementing information security requirements), 
such as the percentage of agency systems reviewed and percentage of 
employee and contractor personnel who received security awareness 
training. For example, DHS reported a substantial increase in the 
percentage of personnel that received security awareness training, 
rising from 14 percent in fiscal year 2003 to 85 percent in fiscal year 
2004. However, DHS continues to face significant challenges in meeting 
most statutory information security requirements. For example, DHS has 
yet to develop a complete and accurate inventory or an effective 
remediation process.

Background
    Since the early 1990s, increasing computer interconnectivity--most 
notably growth in the use of the Internet--has revolutionized the way 
that our government, our nation, and much of the world communicate and 
conduct business. While the benefits have been enormous, without proper 
safeguards, this widespread interconnectivity also poses significant 
risks to the government's computer systems and, more importantly, to 
the critical operations and infrastructures they support.
    We recently reported that, while federal agencies showed 
improvement in addressing information security, they also continued to 
have significant control weaknesses in federal computer systems that 
put federal operations and assets at risk of inadvertent or deliberate 
misuse, financial information at risk of unauthorized modification or 
destruction, sensitive information at risk of inappropriate disclosure, 
and critical operations at the risk of disruption. The significance of 
these weaknesses led us to conclude in the audit of the federal 
government's fiscal year 2004 financial statements \5\ that information 
security was a material weakness.\6\ Our audits also identified 
instances of similar types of weaknesses in non-financial systems. 
Weaknesses continued to be reported in each of the six major areas of 
general controls--the policies, procedures, and technical controls that 
apply to all or a large segment of an entity's information systems and 
help ensure their proper operation.
---------------------------------------------------------------------------
    \5\ U.S. Department of the Treasury, 2004 Financial Report of the 
United States Government (Washington, D.C.; 2005).
    \6\ A material weakness is a condition that precludes the entity's 
internal control from providing reasonable assurance that 
misstatements, losses, or noncompliance material in relation to the 
financial statements or to stewardship information would be prevented 
or detected on a timely basis.
---------------------------------------------------------------------------
    To fully understand the significance of the weaknesses we 
identified, it is necessary to link them to the risks they present to 
federal operations and assets. Virtually all federal operations are 
supported by automated systems and electronic data, and agencies would 
find it difficult, if not impossible, to carry out their missions and 
account for their resources without these information assets. Hence, 
the degree of risk caused by security weaknesses is high. The 
weaknesses identified place a broad array of federal operations and 
assets at risk. For example:
        <bullet> resources, such as federal payments and collections, 
        could be lost or stolen;
        <bullet> computer resources could be used for unauthorized 
        purposes or to launch attacks on others;
        <bullet> sensitive information, such as taxpayer data, social 
        security records, medical records, and proprietary business 
        information could be inappropriately disclosed, browsed, or 
        copied for purposes of industrial espionage or other types of 
        crime;
        <bullet> critical operations, such as those supporting national 
        defense and emergency services, could be disrupted;
        <bullet> data could be modified or destroyed for purposes of 
        fraud, identity theft, or disruption; and
        <bullet> agency missions could be undermined by embarrassing 
        incidents that result in diminished confidence in their ability 
        to conduct operations and fulfill their fiduciary 
        responsibilities.
        <bullet> Congress and the administration have established 
        specific information security requirements in both law and 
        policy to help protect the information and information systems 
        that support these critical operations and assets.

FISMA Authorized and Strengthened Information Security Requirements
    Enacted into law on December 17, 2002, as Title III of the E-
Government Act of 2002, FISMA authorized and strengthened information 
security program, evaluation, and reporting requirements. FISMA assigns 
specific responsibilities to agency heads, chief information officers, 
and IGs. It also assigns responsibilities to OMB, which include 
developing and overseeing the implementation of policies, principles, 
standards, and guidelines on information security and reviewing at 
least annually, and approving or disapproving, agency information 
security programs.
    Overall, FISMA requires each agency to develop, document, and 
implement an agencywide information security program. This program 
should provide information security for the information and information 
systems that support the operations and assets of the agency, including 
those provided or managed by another agency, contractor, or other 
source. Specifically, this program is to include:
        <bullet> periodic assessments of the risk and magnitude of harm 
        that could result from the unauthorized access, use, 
        disclosure, disruption, modification, or destruction of 
        information or information systems;
        <bullet> risk-based policies and procedures that cost-
        effectively reduce information security risks to an acceptable 
        level and ensure that information security is addressed 
        throughout the life cycle of each information system;
        <bullet> subordinate plans for providing adequate information 
        security for networks, facilities, and systems or groups of 
        information systems;
        <bullet> security awareness training for agency personnel, 
        including contractors and other users of information systems 
        that support the operations and assets of the agency;
        <bullet> periodic testing and evaluation of the effectiveness 
        of information security policies, procedures, and practices, 
        performed with a frequency depending on risk, but no less than 
        annually, and that includes testing of management, operational, 
        and technical controls for every system identified in the 
        agency's required inventory of major information systems;
        <bullet> a process for planning, implementing, evaluating, and 
        documenting remedial action to address any deficiencies in the 
        information security policies, procedures, and practices of the 
        agency;
        <bullet> procedures for detecting, reporting, and responding to 
        security incidents; and
        <bullet> plans and procedures to ensure continuity of 
        operations for information systems that support the operations 
        and assets of the agency.
    FISMA also established a requirement that each agency develop, 
maintain, and annually update an inventory of major information systems 
operated by the agency or that are under its control. This inventory is 
to include an identification of the interfaces between each system and 
all other systems or networks, including those not operated by or under 
the control of the agency.
    Each agency is also required to have an annual independent 
evaluation of its information security program and practices, including 
control testing and compliance assessment. Evaluations of non-national 
security systems are to be performed by the agency IG or by an 
independent external auditor, while evaluations related to national 
security systems are to be performed only by an entity designated by 
the agency head.
    The agencies are to report annually to OMB, selected congressional 
committees, and the Comptroller General on the adequacy of information 
security policies, procedures, practices, and compliance with FISMA 
requirements. In addition, agency heads are required to make annual 
reports of the results of their independent evaluations to OMB. OMB is 
also required to submit a report to Congress no later than March 1 of 
each year on agency compliance, including summary of the findings of 
agencies' independent evaluations.
    Other major provisions require NIST to develop, for systems other 
than national security systems: (1) standards to be used by all 
agencies to categorize all their information and information systems 
based on the objectives of providing appropriate levels of information 
security according to a range of risk levels; (2)guidelines 
recommending the types of information and information systems to be 
included in each category; and (3) minimum information security 
requirements for information and information systems in each category. 
NIST must also develop a definition and guidelines concerning detection 
and handling of information security incidents and guidelines, 
developed in conjunction with the Department of Defense (DOD) and the 
National Security Agency, for identifying an information system as a 
national security system.

OMB Reporting Instructions and Guidance Emphasize Performance Measures
    Consistent with FISMA requirements, OMB issues guidance agencies on 
their annual reporting requirements. On August 23, 2004, OMB issued its 
fiscal year 2004 reporting instructions. The reporting instructions, 
similar to the 2003 instructions, emphasize strong focus on performance 
measures and formatted these instructions to emphasize a quantitative 
response. OMB has developed performance measures in the following 
areas, including:
        <bullet> certification and accreditation,\7\
---------------------------------------------------------------------------
    \7\ Certification is a comprehensive process of assessing the level 
of security risk, identifying security controls needed to reduce risk 
and maintain it at an acceptable level, documenting security controls 
in a security plan, and testing controls to ensure they operate as 
intended. Accreditation is a written decision by an agency management 
official authorizing operation of a particular information system or 
group of systems.
---------------------------------------------------------------------------
        <bullet> annual review of agency systems,
        <bullet> annual review of contractor operations or facilities,
        <bullet> annual security awareness training for employees and 
        contractors,
        <bullet> annual specialized training for employees with 
        significant security responsibilities, and
        <bullet> testing of contingency plans.
    Further, OMB provided instructions for continued agency reporting 
on the status of remediation efforts through plans of action and 
milestones. Required for all programs and systems where an IT security 
weakness has been found, these plans list the weaknesses and show 
estimated resource needs or other challenges to resolving them, key 
milestones and completion dates, and the status of corrective actions. 
The plans are to be submitted twice a year. In addition, agencies are 
to submit quarterly updates that indicate the number of weaknesses for 
which corrective action was completed on time (including testing), is 
ongoing and on track to be completed as originally scheduled, or has 
been delayed, as well as the number of new weaknesses discovered since 
the last update.
    The IGs' reports were to be based on the results of their 
independent evaluations, including work performed throughout the 
reporting period (such as financial statements or other audits). While 
OMB asked the IGs to respond to the same questions as the agencies, it 
also asked them to assess whether their agency had developed, 
implemented, and was managing an agencywide plan of actions and 
milestones. Further, OMB asked the IGs to assess the certification and 
accreditation process at their agencies. OMB did not request that the 
IGs validate agency responses to the performance measures. Instead, as 
part of their independent evaluations of a subset of agency systems, 
IGs were asked to assess the reliability of the data for those systems 
that they evaluated.

Recently-created Department of Homeland Security is Large and Complex
    In the aftermath of September 11, invigorating the nation's 
homeland security missions became one of the federal government's most 
significant challenges. The Homeland Security Act of 2002 created DHS, 
combining 22 agencies into one department. DHS, with an estimated 
170,000 employees, is the third largest government agency. Not since 
the creation of DOD more than 50 years ago had the government sought an 
integration and transformation of this magnitude.
    GAO designated implementing and transforming DHS as high risk in 
2003 because DHS had to transform 22 agencies--several with major 
management challenges--into one department, and failure to effectively 
address its management challenges and program risks could have serious 
consequences for our national security.\8\ DHS combined 22 agencies 
specializing in various disciplines: law enforcement, border security, 
biological research, disaster mitigation, and computer security, for 
instance. Further, DHS oversees a number of non-homeland-security 
activities, such as the Coast Guard's marine safety responsibilities 
and the Federal Emergency Management Agency's natural disaster response 
functions.
---------------------------------------------------------------------------
    \8\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, D.C.: 
January, 2005).
---------------------------------------------------------------------------
    DHS has lead responsibility for preventing terrorist attacks in the 
United States, reducing the vulnerability of the United States to 
terrorist attacks, and minimizing the damage and assisting in the 
recovery from attacks that do occur. DHS has five under secretaries 
with responsibility over directorates for management, science and 
technology, information analysis and infrastructure protection, border 
and transportation security, and emergency preparedness and response. 
In addition, the department has four other organizations that report 
directly to the Secretary.
    DHS uses a variety of major applications and general support 
systems in support of operational and administrative requirements. In 
its 2004 FISMA report, DHS stated that it had 395 systems and 61 
contractor operations. These systems often served specific 
organizations that are now merged with others, resulting in 
interoperability issues, data management concerns, and incompatible 
environments or duplicative processes.

Department of Homeland Security's FISMA Reports Highlight Increases in 
Performance Measures, but Challenges Remain
    In its FISMA-mandated report for fiscal year 2004, DHS generally 
reported increases in compliance with information security requirements 
as compared with 2003. However, DHS continues to face significant 
challenges. The following key performance measures showed increased 
performance and/or continuing challenges:
        <bullet> percentage of systems certified and accredited;
        <bullet> percentage of agency systems reviewed annually;
        <bullet> percentage of contractor operations reviewed annually;
        <bullet> percentage of employees and contractors receiving 
        annual security awareness training;
        <bullet> percentage of employees with significant security 
        responsibilities receiving specialized security training 
        annually; and
        <bullet> percentage of systems with contingency plans tested.
    Figure 1 illustrates the reported overall status of DHS in meeting 
these performance measures and the changes between fiscal years 2003 
and 2004. 

[GRAPHIC] [TIFF OMITTED] T2902.001

[GRAPHIC] [TIFF OMITTED] T2902.002

reflects the level of agency compliance for risk assessments and 
security plans. For FISMA reporting, OMB requires agencies to report 
the number of systems authorized for processing after completing 
certification and accreditation.
    DHS reported a significant increase for this performance measure in 
its fiscal year 2004 report. The Department reported that approximately 
68 percent of its systems had been certified and accredited, an 
increase of 26 percent over fiscal year 2003. Governmentwide, 77 
percent of all systems were certified and accredited compared to the 68 
percent at DHS. If agencies do not certify and accredit their systems, 
they cannot be assured that risks have been identified and mitigated to 
an acceptable level.
    Moreover, the DHS IG reported in its 2004 FISMA report that the 
certification and accreditation process at the Department was poor. The 
report noted that the certification and accreditation process was not 
performed consistently across the Department. In addition, there were 
instances where certified and accredited systems lacked key security 
documentation such as up-to-date and approved security plans, a current 
risk assessment, and contingency plans. As a result, the agency 
reported performance data may not accurately reflect the status of 
DHS's efforts to implement this requirement.

Annual Review of Agency Systems
    FISMA requires that agency information security programs include 
periodic testing and evaluation of the effectiveness of information 
security policies, procedures, and practices to be performed with a 
frequency that depends on risk, but no less than annually. This is to 
include testing of management, operational, and technical controls for 
every information system identified in the FISMA-required inventory of 
major systems. Periodically evaluating the effectiveness of security 
policies and controls and acting to address any identified weaknesses 
are fundamental activities that allow an organization to manage its 
information security risks cost effectively, rather than reacting to 
individual problems ad hoc only after a violation has been detected or 
an audit finding has been reported. Further, management control testing 
and evaluation as part of program reviews is an additional source of 
information that can be considered along with control testing and 
evaluation in IG and GAO audits to help provide a more complete picture 
of the agencies' security postures. As a performance measure for this 
requirement, OMB requires that agencies report the number of systems 
that they have reviewed during the year.
    DHS reported performing an annual review on an increased percentage 
of its systems. It reported in 2004 that it had reviewed 54 percent of 
its systems, as compared to 44 percent in 2003. In 2004, 23 of the 24 
CFO agencies reported that they had reviewed 90 percent or more of 
their systems. Annual security testing helps to provide assurance to 
the agencies that security controls are in place and functioning 
correctly. Without such testing, agencies cannot be assured that their 
information and systems are protected.

Annual Review of Contractor Operations
    Under FISMA, agency heads are responsible for providing information 
security protections for information collected or maintained by or on 
behalf of the agency and information systems used or operated by an 
agency or by a contractor. Thus, agency information security programs 
apply to all organizations that possess or use federal information or 
that operate, use, or have access to federal information systems on 
behalf of a federal agency. Other such organizations may include 
contractors, grantees, state and local governments, and industry 
partners. This underscores longstanding OMB policy concerning sharing 
government information and interconnecting systems: federal security 
requirements continue to apply and the agency is responsible for 
ensuring appropriate security controls.
    At DHS, the key performance measure of annually reviewing 
contractor operations showed a minor decrease from 73 percent in 2003 
to 67 percent in 2004. Twenty of the Department's contractor operations 
were not reviewed. The governmentwide performance measure was reported 
as 83 percent of all contractor operations reviewed. If agencies do not 
review contractor operations, they cannot be assured that federal data 
is being handled in accordance with agency requirements.

Security Awareness Training
    FISMA requires agencies to provide security awareness training to 
inform personnel, including contractors and other users of information 
systems that support the operations and assets of the agency, of 
information security risks associated with their activities, and the 
agency's responsibilities in complying with policies and procedures 
designed to reduce these risks. Our studies of best practices at 
leading organizations \10\ have shown that such organizations took 
steps to ensure that personnel involved in various aspects of their 
information security programs had the skills and knowledge they needed. 
Agencies reported that they provided security awareness training to the 
majority of their employees and contractors. As performance measures 
for FISMA training requirements, OMB has the agencies report the number 
of employees and contractors who received IT security training during 
fiscal year 2004.
---------------------------------------------------------------------------
    \10\ GAO, Executive Guide: Information Security Management: 
Learning From Leading Organizations, GAO/AIMD-98-68 (May, 1998).
---------------------------------------------------------------------------
    DHS reported a substantial increase in the percentage of employees 
and contractors who received security awareness training in fiscal year 
2004. The Department reported that it had trained 85 percent of its 
staff compared to 14 percent in 2003. As a result, reported performance 
is comparable to the majority of agencies in this performance measure, 
as seventeen agencies reported that they had trained more than 90 
percent of their employees and contractors in basic security awareness.

Specialized Security Training
    Under FISMA, agencies are required to provide training in 
information security to personnel with significant security 
responsibilities. As previously noted, our study of best practices at 
leading organizations has shown that such organizations recognized that 
staff expertise needed to be updated frequently to keep security 
employees updated on changes in threats, vulnerabilities, software, 
security techniques, and security monitoring tools. OMB directs 
agencies to report on the percentage of their employees with 
significant security responsibilities who received specialized 
training.
    DHS presented substantial improvement in this performance measure, 
reporting that it had provided specialized training to more than 90 
percent of its employees who have significant security 
responsibilities. Not only was this a significant improvement over the 
66 percent reported in 2003, it also places DHS among the top ten 
agencies governmentwide for this performance measure. Given the rapidly 
changing threats in information security, agencies need to keep their 
IT security employees up-to-date on changes in technology. Otherwise, 
agencies may face increased risk of security breaches.

Testing of Contingency Plans
    Contingency plans provide specific instructions for restoring 
critical systems, including such elements as arrangements for 
alternative processing facilities in case the usual facilities are 
significantly damaged or cannot be accessed due to unexpected events 
such as temporary power failure, accidental loss of files, or a major 
disaster. It is important that these plans be clearly documented, 
communicated to potentially affected staff, and updated to reflect 
current operations.
    The testing of contingency plans is essential to determining 
whether plans will function as intended in an emergency situation. The 
frequency of plan testing will vary depending on the criticality of the 
entity's operations. The most useful tests involve simulating a 
disaster situation to test overall service continuity. Such a test 
would include testing whether the alternative data processing site will 
function as intended and whether critical computer data and programs 
recovered from off-site storage are accessible and current. In 
executing the plan, managers will be able to identify weaknesses and 
make changes accordingly. Moreover, tests will assess how well 
employees have been trained to carry out their roles and 
responsibilities in a disaster situation. To show the status of 
implementing this requirement, OMB requires that agencies report the 
number of systems that have a contingency plan and the number that have 
contingency plans that have been tested.
    DHS reported a modest increase in the percentage of contingency 
plans tested. The department stated that it had tested contingency 
plans for 21 percent of its systems, an 8 percentage point increase 
over 2003. Moreover, analysis of the numbers reveals that DHS tested 82 
plans, which was almost double what it tested in 2003. However, the 
majority of its systems do not have tested contingency plans. Overall, 
federal agencies reported that 57 percent of systems had contingency 
plans that had been tested. Without testing, agencies can have limited 
assurance that they will be able to recover mission-critical 
applications, business processes, and information in the event of an 
unexpected interruption.

Other Challenges in Implementing Statutory Requirements
    In addition to the performance measures, there are other 
requirements that agencies must meet under FISMA. Agencies are required 
to have a complete and accurate inventory of their major systems and 
any interdependencies. They are also required to have a remediation 
process for correcting identified information security weaknesses.
    The total number of agency systems is a key element in OMB's 
performance measures, in that agency progress is indicated by the 
percentage of total systems that meet specific information security 
requirements. Thus, inaccurate or incomplete data on the total number 
of agency systems affects the percentage of systems shown as meeting 
the requirements. Further, a complete inventory of major information 
systems is a key element of managing the agency's IT resources, 
including the security of those resources.
    DHS reported that it did not have a complete and accurate inventory 
in either 2003 or 2004. Without reliable information on DHS's 
inventories, the Department, the administration, and Congress cannot be 
fully assured of DHS's progress in implementing FISMA.
    FISMA requires each agency to develop a process for planning, 
implementing, evaluating, and documenting remedial actions to address 
any deficiencies in the information security policies, procedures and 
practices of the agency. OMB's implementing guidance refers to this 
process as a security plan of action and milestones. The chief 
information officer (CIO) is to manage the process for the agencies and 
program officials are required to regularly update the CIO on their 
progress in implementing remedial actions. This process allows both the 
CIO and the IG to monitor agency-wide progress, identify problems, and 
provide accurate reporting. In its annual reporting guidance, OMB asks 
the agency IGs to report on the status of the plan of action and 
milestones at their agencies. IGs were asked to evaluate the process 
based on the following criteria:
        <bullet> known IT security weaknesses from all components are 
        incorporated;
        <bullet> program officials develop, implement and manage plans 
        for the systems they own and operate that have an IT security 
        weakness;
        <bullet> program officials report to the CIO on a regular basis 
        (at least quarterly) on their remediation progress;
        <bullet> CIO develops, implements and manages plans for the 
        systems they own and operate that have an IT security weakness;
        <bullet> CIO centrally tracks, maintains, and reviews all plan 
        activities on at least a quarterly basis;
        <bullet> The plan is the authoritative agency tool for agency 
        and IG management to identify and monitor agency actions for 
        corrected information security weaknesses;
        <bullet> System-level plans are tied directly to the system 
        budget request through the IT business case as required in OMB 
        budget guidance;
        <bullet> IG has access to the plans as requested;
        <bullet> IG findings are incorporated into the process; and
        <bullet> the process prioritizes IT security weaknesses to help 
        significant weaknesses are addressed in a timely manner and 
        receive appropriate resources.
    In its 2004 FISMA report, the DHS IG described problems with the 
plan of action and milestones process at DHS. According to the IG, 
seven of the nine major department components reviewed lacked a 
documented and implemented plan of action and milestones. Further, the 
IG stated that the CIO did not receive reports of remediation progress 
and did not ensure that components updated the status of their 
progress. Linkage of the plans to budget requests was reported as 
minimal at the component level. Seven of the nine components reviewed 
did not have a formal process to prioritize their IT security 
weaknesses. Finally, the IG reported that its findings were not 
incorporated into the plan of action and milestones at DHS. Without an 
effective, implemented remediation process, DHS cannot be assured that 
identified security weaknesses are tracked and corrected.
    In summary, DHS generally showed increases in the OMB performance 
measures for FISMA implementation in fiscal year 2004. However, it 
still faces challenges in implementing the statutory requirements. It 
faces significant challenges in both inventory development and the 
implementation of its remediation process. Accordingly, if information 
security is to continue to improve, agency management must remain 
committed to these efforts. The annual reports and performance measures 
will continue to be key tools for holding DHS accountable and providing 
a barometer of the overall status of its information security.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions from you or members of the Committee.
    Should you have any questions about this testimony, please contact 
me at (202) 512-3317 or Suzanne Lightman, Assistant Director, at (202) 
512-8146 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87f0eeebf4eff2f4e2e9e0c7e0e6e8a9e0e8f1">[email&#160;protected]</a> and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c20252b2438212d223f0c2b2d23622b233a">[email&#160;protected]</a>, 
respectively.
    Other individuals making key contributions to this testimony 
include Larry Crosland, Season Dietrich, Nancy Glover, Carol Langelier, 
and Stephanie Lee.

    Mr. Rogers. Thank you very much.
    I just have a couple of questions. I would like to first 
start with you and then go with Mr. Cooper.
    And we would advise you, we may be called for votes at any 
minute. And we will try to find a good break time to do that.
    In listening to your testimony, you talked about how the 
grade that we referenced in our opening remarks may not be an 
accurate measure. What do you see as the greatest deficiency or 
problem with DHS and it's information security right now, based 
on your review?
    Mr. Wilshusen. Well, based on our review of the FISMA 
report--.
    Mr. Rogers. Right.
    Mr. Wilshusen. --one of the key elements is, of course, 
having a complete and accurate inventory, because that is your 
bottom base-line in terms of being able to track any progress 
in the performance of securing those systems. If you do not 
know what the total population of your systems are, it is very 
difficult to assure that your systems are going to be 
adequately secure.
    Mr. Rogers. So the inadequate inventory, in your view, is 
the most glaring problem?
    Mr. Wilshusen. And the incomplete inventory. That is a key 
problem. Another key problem, which is that the IG has raised 
in his testimony--actually, it was the assistant inspector 
general for information technology at DHS--last week is just 
the organizational alignment of the CIO and CISO at the 
departmental level, along with their counterparts at the 
organizational elements.
    Mr. Rogers. Mr. Cooper, what do you see as the greatest 
shortcoming in your department and what poses the greatest risk 
to us as a nation?
    Mr. Cooper. I would first confer with what Greg said. And 
we do recognize that an incomplete inventory is a challenge. 
The inventory represents--and what I would like to try to do in 
my answer is tie it into the context of the FISMA scorecard, 
and help very quickly with a little bit of how the scoring 
actually impacts the grade and may not fully represent the 
progress we have made.
    The inventory represents basically a negative 10 points. We 
received no score at all, and still our inventory is certified 
as greater than 95 percent complete. We currently stand 
somewhere between 85 and 90 percent complete. That inventory is 
identified over 3,600 significant applications.
    If we compare the quantity with the Department of 
Transportation, just as an example that was used in a more 
recent hearing, the Department of Transportation has 480 
significant applications. The complexity and the quantity were 
temporarily against us.
    We are on track to complete our inventory some time the 
early part of Fiscal Year 2006, at which point we will then 
have a full inventory. Our accreditation of that inventory 
will, in fact, move from about the current 70 percent probably 
to about 90 or 95 percent in the same timeframe, so that we 
will get both the actual work done, and the scoring will be 
reflected in the FISMA scorecard. That is area number one.
    Area number two is in the certification and accreditation 
of all the applications themselves, and the systems, and the 
networks, and all the various moving parts and pieces. We 
currently stand at about 70 percent. And 70 percent is a 
failing grade.
    Last time I was in school, I could not talk teachers into 
giving me anything greater than about a D-if I ended up with a 
70. That is still true; we recognize it. And we absolutely 
encourage the committee to hold us accountable to those 
criteria. We will achieve the desired accreditation and 
certification. However, it is again not going to occur until 
Fiscal Year 2006.
    The third area is what is labeled in the scorecard 
``Configuration Management.'' Now, what that really means is, 
that for all of the operating systems and the technical 
platforms that we operate across the department, FISMA requires 
us to have both policy and guidelines for securing those types 
of environments and to implement those published guidelines.
    Because of our infrastructure transformation initiative, 
which is a major initiative in the department, I, as the CIO, 
made a decision--I am the one that you should hold 
accountable--that we would not actually move to execute or 
implement some of the configuration management guidelines for 
those platforms or operating systems that we are going to 
retire through the conduct of our infrastructure transformation 
program.
    That configuration and implementation of the configuration 
management, policies and guidelines represents 20 points in the 
scoring. If you take the inventory minus 10, the configuration 
management minus 20, we are at 70 before we have done anything 
else.
    Unfortunately, I am here to tell you that in Fiscal Year 
2005, we are most likely going to receive an F again. But in 
2006, as we complete the program, action and milestones that 
has now moved from 300 line items in 2004--that was the POAM, 
that Greg referred to. It now contains over 3,000 line items, 
action items, that we are actually going to produce and 
conduct.
    But our grade in 2005, most likely, will be an F. In 2006, 
it will probably move to a B. And it will be that quick. It is 
going to show up as an F; it will be a B in 2006.
    Mr. Rogers. My time has expired. I thank the gentleman.
    And I now recognize the Ranking Member, my colleague from 
Florida, Mr. Meek, for any questions he may have.
    Mr. Meek. Thank you, Mr. Chairman.
    I guess a question for either one of you.
    Mr. Cooper, once again, I know that you are in the sunset 
of your time at the Department of Homeland Security. But I 
wanted to say how confusing a lot of this is for many of us. A 
lot of us are well-intended on both sides of the aisle. We 
understand this issue, because this is where we really come 
together, as it relates to protecting the homeland.
    And we ask the private sector disclosure, you know, when 
things happen, reporting. I know that is a part of the GAO 
report about reporting. And when we continue to receive, you 
know, an F or a D, who are we to criticize the private sector?
    The difference between us and the private sector is the 
fact the nine times out of ten, it is dealing with financial 
documents, personal information of Americans. But when it comes 
down to us, it is dealing with, you know, the issue of 
protecting the homeland, and in some instances, some of our 
friends and neighbors.
    I know that you are leaving. I know philosophy change. So I 
want you to talk a little bit about how we are going to stay on 
track and how we are going to improve ourselves, because to the 
everyday American, I mean, they do not understand half of some 
of the things that may go on up here. And I will tell you, some 
of us in the process do not understand half of what is going on 
up here. And I am serious about that, especially when it comes 
down to IT issues, that are very important issues.
    I know that you talked about integrating a number of 
systems and also pulling a department together. We are all 
neophytes as it relates to homeland security, even on this 
committee, because many of us on this committee, we served in 
the last select committee and now we have a permanent 
committee.
    But we have departments like Department of Agriculture, 
which, you know, they do not have the same situation the 
Department of Homeland Security has had, as it relates to being 
created in a new agency. Department of Health and Human 
Services, these are double-F agencies. Department of Energy, I 
mean, there has not been overhaul of the department to where 
that they had to find new accountability, nor Housing and Urban 
Development.
    So I am trying to--and if maybe you could address a little 
bit about what we are talking--given the benefit of the doubt 
of a new department, and the fact that, you know, we can look 
forward to an F next year--not look forward to it gleefully, 
but you are warning us.
    And it goes with what the Secretary shared with me 
yesterday when we were in full committee. And I asked him this 
question. He said it will be a while before we can get our 
cards in order, but we need to do it more sooner than later.
    Talk a little bit about how this thing is going to live 
beyond you personally. Who is going to be in place? What kind 
of attrition are we facing now, as it relates to the 
individuals that serve under you directly, so that, when we are 
here a year from now, unfortunately having the same 
subcommittee hearing? Because we are going to move a bill, from 
what I understand. There are some members--and I know we have a 
member of the subcommittee--here today.
    Just elaborate on what I have--.
    Mr. Cooper. First, sitting behind me is Robert West, who is 
our chief information security officer in the Department of 
Homeland Security. Bob is a career federal civil servant with 
more than 20 years of federal experience in this specific 
space, in information insurance and information security. Bob's 
staying. He is not going anywhere.
    Most important, though, how are we moving this forward 
beyond the work that Bob has guided, that I have supported, 
that the department has supported? The information security 
systems environment that Bob established has an information 
system security advisory board.
    There are information system security managers from every 
part of the organizational elements of the department. They are 
federal people. They maintain the continuity.
    The DHS CIO Council that I established contains the CIOs of 
all of the organizational elements. They are federal career 
people. They sustain the continuity.
    We have put in place an automated tool called Trusted Agent 
FISMA, which now records--it is actually linked directly into 
our applications systems environment--and it records all of 
these progress, the accreditation, the work that is been done 
electronically so that it becomes a management tool, so that 
the Secretary, the Deputy Secretary and all of the line 
managers of the department, not just the IT community, for the 
first time have visibility into their accreditation status, 
their configuring management status, their plan of action and 
milestones. This is all available electronically.
    And there is a real-time green, yellow, red indicator, 
based upon not only the FISMA calibration but also the 
additional criteria that we have established in the department. 
At any point in time now--this is now operational. This is 
real. It is in place. I am not selling you something that we 
are going to do. It is done.
    This enables every key executive in the department to 
understand exactly where their area of responsibility is, with 
regard to information security and assurance, and they 
understand that it is a shared responsibility between the CIO 
community and the business community to continue to build upon 
the progress that we have made.
    That is one major--second is that, as we complete our 
inventory, okay, we actually are consolidating. So the 
environment is becoming less complex. As we consolidate, we 
have fewer things to accredit. We get better as we go along.
    Mr. Meek. Thank you, Mr. Cooper. I am out of time. We have 
other members here, and the bell is going to ring soon. But 
hopefully we will have a second round.
    Thank you.
    Mr. Rogers. The gentleman's time has expired.
    My colleague from Washington, Mr. Reichert, is recognized 
for 5 minutes.
    Mr. Reichert. Well, I think it is on.
    Mr. Rogers. It is.
    Mr. Reichert. Thank you, Mr. Chairman.
    Welcome. My background is in law enforcement. And one of 
the major concerns, of course, when you talk about securing 
information is sharing information. How do you balance the two?
    Where in Seattle, in the King County northwest region--and 
maybe you have addressed this in your initial comments--we have 
been designated as one of five regions in the country as a test 
site for the LINX system. The FBI initially chose not to 
participate. Now they have come to the table and are willing to 
discuss. Their concern was protecting and securing the 
information, of course, that they gather and that they have in 
their files.
    We have also, in the northwest region, been selected as one 
of the four cities in the integration initiative for DHS, along 
with Cincinnati, Anaheim and Memphis. So there is this effort 
to integrate information and share information. And I see a 
conflict there in securing the information but also at the same 
time in working with local agencies and being able to share 
that information.
    How do you balance those two huge responsibilities?
    Mr. Cooper. What we have actually done is we have taken a 
risk-based prioritized approach. And out of this 3,600 
applicants, as I was saying, what we have actually done is, we 
have picked the ones that are most important to the mission of 
homeland security.
    For example, those that you described are part of our 
homeland security information network. That was one of the 
first applications that we ensured was accredited, certified 
and had its interim authorities operate. So anything that is 
moving information from within the department and within the 
federal environment out into the state and local environment, 
we have actually focused on those in the early stages.
    And all of those applications networks are accredited. They 
have all of the tools and cybersecurity protection software 
that we have in place. We monitor those applications and the 
networks on a 24 by 7 basis. The monitoring is linked into the 
federal search for the reporting of any incidence or anything 
that looks suspicious, even suspicious activity, which we can 
monitor and track.
    We believe that this enables the department to ensure that 
any information going to law enforcement, sensitive and 
unclassified, and our classified environment, which actually is 
also thoroughly certified, tested, proved. Our partnerships 
with the National Security Agency and the intelligence 
community are all absolutely where they need to be.
    Our business systems, on the other hand, we do not have 
full accredited. Just to give you a quick example and to give 
you a very, very--response.
    Mr. Reichert. Okay. Do you see the arrival of wireless as 
complicating your efforts in security, so that officers on the 
street have real-time information?
    Mr. Cooper. It is a challenge, but we have already begun to 
put wireless-based systems in place using, you know, personal 
visual assistants, like a BlackBerry, that type of thing, move 
protected, encrypted information out to Border Patrol agents or 
out to local law enforcement.
    We have operational projects in place that are fully 
protected, fully accredited. We will continue to do that, 
again, on this prioritized risk-based approach.
    But it does add additional challenges. One that we are 
struggling with, we actually are trying to figure out the best 
way to protect the home use of home computers connecting into, 
for example, e-mail of DHS employees. And as you know, many 
people have home wireless networks where your neighbor, if you 
have not properly encrypted it, can enter your own network 
without you realizing it.
    Mr. Reichert. Right.
    Mr. Cooper. So that is a challenge.
    Mr. Reichert. Well, I would just make one last comment, as 
far as wireless goes. I think, from a local perspective, and 
working with federal agencies, and making sure that we share 
information real-time, the wireless technology is critical in 
that effort. And I certainly recognize the difficult in 
providing security when you move on to that new technology.
    Thank you very much. I yield my time.
    Mr. Rogers. The gentleman yields back.
    The gentlelady from Texas, Ms. Jackson-Lee, is recognized 
for any questions she may have for 5 minutes.
    Ms. Jackson-Lee. I thank the Chairman.
    This might be one of the more important subcommittees of 
the Department of Homeland Security and, of course, 
responsibilities of the Congress. I said something in the 
hearing yesterday with the Secretary.
    And before I make the same comment very quickly, I just 
want to acknowledge your work, Mr. Cooper, and of course, Mr. 
Wilshusen, your work, as well, and all of the employees of the 
Department of Homeland Security pushed together in a very 
trying time in America's history and rising to the occasion.
    But allow me to ask you to reflect, because I made this 
statement, that maybe Congress may have made a mistake in its 
rush to do the right thing. And I say that, and I would 
appreciate your comment, on the largeness of a 180,000 person-
department, which might warrant this committee or the whole 
committee reviewing if all the pieces that are there now really 
need to be.
    While you reflect on that, would you take note of the fact 
that the entity that EMS professionals respond to is in DOT. 
Fire and police are in DHS. And EMS, which are the very 
principals who deal with a nuclear attack, a chemical attack, 
with triages on the street, they are in DOT.
    And the last point, simply, legislation that we are 
supporting that goes really to this issue on this whole 
question of data security or security would put in place an 
Assistant Secretary of Cybersecurity. Would that be a helpful 
structure because of ChoicePoint and LexisNexis?
    But you would, Mr. Cooper, share your thoughts on the re-
visioning, if you will, of DHS, which may add to better 
security?
    Mr. Cooper. Okay. Although I am a certified emergency 
medical technician and have ridden ambulances in my earlier 
career, I have to admit that I am not sure that I would be the 
best person to really comment on the organization of the 
federal enterprise. I kind of have to defer to Congress, have 
to defer to those who have had many more years of experience 
than I in the federal environment.
    What I would offer is that I absolutely would encourage 
this committee, the full committee, and Congress to hold the 
department accountable for all of the aspects of FISMA and for 
those challenges around cybersecurity for the nation. That 
includes the role that the chief information officer plays, the 
chief information security officer, and our national 
cybersecurity division, which really is the component that 
looks externally for the department.
    I, as the CIO, have the internal responsibility for 
complying with FISMA and ensuring that all of the information 
technology assets of the department are secure, including the 
data aspects of that.
    I would also suggest that we are absolutely on the right 
track in the information-sharing initiative, which is federal, 
enterprise-wide initiative, as you know, under the Executive 
Order 13336, although do not hold me fully to the proper 
number. I will relay that back to the committee, if necessary.
    Under the guidance of the Office of Management and Budget, 
significant work architecturally is being done that I think 
will ensure that, regardless of the organizational structure, 
the right information, regardless of its source in whatever 
federal department exists, can, in fact, be exchanged with 
other parts of the federal enterprise and appropriate 
authorities in state and local, tribal governments, and the 
private sector that has responsibility for critical 
infrastructure.
    Ms. Jackson-Lee. Can I ask that Mr. Wilshusen, if he would 
comment on the largeness and the possible need of reviewing all 
of the elements of the DHS, which deals with security--what 
might help it contain its security issues?
    Mr. Wilshusen. I would also just like to comment on what 
Mr. Cooper just mentioned, too, and kind of expand on that, in 
terms of what the Congress' responsibility to help provide 
oversight in holding the agency officials accountable.
    FISMA also gives specific responsibilities to the agency 
head. It is not just the CIO's responsibility or the chief 
information security officer's responsibility. Overall 
responsibility rests with the agency head. So certainly, 
keeping the agency head and other senior program officials, who 
also have specific responsibilities under FISMA, also need to 
be held accountable and made aware of their responsibility.
    Ms. Jackson-Lee. Thank you.
    Mr. Rogers. The gentlelady yields back.
    The chair now recognizes the Chairman of the full 
committee, Mr. Cox from California.
    Mr. Cox. Thank you very much.
    And I want to thank our witnesses for being here. I know 
that you both have been working on this issue for some time, 
Mr. Cooper in particular, specifically in the Department of 
Homeland Security.
    I want to make sure I understand the evaluation that we 
have been given. Agency inspectors general were asked several 
questions to evaluate and verify whether various departments in 
the government, and specifically the Department of Homeland 
Security, maintain and update an effective plan of action. They 
were asked whether the Department of Homeland Security 
maintains and updates milestones in order to remediate security 
weaknesses.
    So my understanding is that the responses to those 
questions go not to whether or not we have secure systems in 
place at DHS, but rather whether the process--an easier test--
whether the process that is in place to get us there is a good 
one.
    And that even in response to that easier question, if it is 
the process that is designed to get us secure a good one, the 
answer came back, essentially, no. But I want to make sure that 
my understanding is correct.
    There is a column--and, Mr. Wilshusen, I am going to direct 
this to you, because I think that this is your line of inquiry. 
All of the agencies, from AID to Veterans Affairs, are listed. 
DHS is one of those agencies. And the questions about an 
effective plan of action and milestones were put. There was a 
column that says, ``Verified: Yes, No.'' And the answer for the 
Department of Homeland Security is ``no.''
    Does that mean that you just did not verify it or that you 
could not verify it because there was a problem?
    Mr. Wilshusen. FISMA requires each agency and their 
inspector general to report on the progress of the agency in 
implementing the provisions of FISMA. OMB and one of its 
responsibilities is giving reporting instructions to the 
agencies and IGs and how--in both the form and content of how 
to report those--to meet that reporting requirement.
    OMB requires two types of information. One, they do require 
performance measures in reporting how agencies have implemented 
different information security requirements, for example, the 
percentage of systems that have been certified and accredited.
    In addition, OMB has asked the inspector generals, or 
inspectors general, to review the quality of some of the 
processes at those agencies, such as the process for certifying 
and accrediting their systems as well as the department process 
for developing a plan of action and milestones.
    In specific response to your question, ``Is that 
verified?'' is that the IG for that particular issue has said 
that they do not have a strong or a good process for that.
    Mr. Cox. All right, so this is not simply a matter of our 
not being able to verify the answer to the question. Rather, it 
goes to the lack of a sound process?
    Mr. Wilshusen. If that is from the FISMA 2004 report, I 
believe that is correct.
    Mr. Cox. That is exactly right. That is what I am quoting.
    Mr. Wilshusen. Okay.
    Mr. Cox. And that is what it means.
    Mr. Cooper, help me with why we should not be concerned 
about this?
    Mr. Cooper. Last year, you should have absolutely been 
concerned. So were we. I certainly am not proud of our failing 
grade. And we take it very seriously.
    And what that reflects is exactly correct. Our inspector 
general, working with us, and kind of looking over our shoulder 
at the work we have done, labeled our plan of action and 
milestones process to get us to all of the things that we want 
to get done as poor. And we agreed.
    Here is the good side of the story. Last year, we had about 
300 line items, meaning specific tasks that we needed to take. 
This year, in the ensuing time, our report this year will not 
only show that we have a very good, robust process, but we now 
have over 3,000 action items identified. That is the difference 
between a poor process not well-executed and a good process 
properly executed.
    I am very confident that, although we still will most 
likely receive an overall failing grade, which again we are not 
going to be proud of--
    Mr. Cox. But let me make sure I understand. If the grade is 
given not on whether your computers systems are secure but 
rather on whether you are following a process to get them 
there, why would not you get a passing grade?
    Mr. Cooper. It is both. It is both. In other words, the 
process represents actually only about 15 points of the 100 
that comprise the total score. But we only received two points, 
because of our poor process and nothing in the plan.
    The accreditation and certification represents about 20 
percent of the total grade. We received zero points, okay? This 
year, we will receive significantly greater points in each 
area.
    But the total score that also includes things like annual 
testing, configuration management, incident protection, and 
response and reporting, when you total up all those different 
categories--and there are seven or eight major categories--we 
still will not aggregate enough points--A, B or higher, we 
believe. This is what I am projecting, and this is what I am 
telling you.
    We are on track, however, we believe, to achieve a score 
significantly higher, probably we believe a B, by the end of 
Fiscal Year 2006. But the reality for the Department of 
Homeland Security, our environment is large enough, complex 
enough, and has so many different moving parts and pieces. We 
are moving as quickly as we can, but we must move with quality 
and with speed.
    And we just do not believe we cannot get there faster than 
Fiscal Year 2006.
    Mr. Cox. Mr. Chairman, my time has expired. I do not know 
if--I did not realize there were votes on the floor. I yield 
back.
    Mr. Rogers. The gentleman yields back.
    I do want to thank both of you again for your statements. 
And your answers have been very helpful. We have been called 
for two votes, so we are going to excuse both of you all and 
ask our second panel, if you could, to be patient with us.
    We are going to run over and vote, and we will be right 
back for the start of our second panel. Thank you very much.
    We are in recess, subject to the call of the chair.
    [Recess.]
    Mr. Rogers. The chair would like to call this meeting of 
the subcommittee back to order.
    And I thank our panelists for their patience, but we had to 
go vote. And I would now like to recognize Mr. Mark MacCarthy, 
senior vice president for public policy at Visa USA to testify.
    Your statement?

STATEMENTS OF MARK MacCARTHY, SENIOR VICE PRESIDENT FOR PUBLIC 
                        POLICY, VISA USA

    Mr. MacCarthy. Thank you, Mr. Chairman and ranking minority 
member.
    My name is Mark MacCarthy. I am the senior vice president 
of public policy for Visa USA. I appreciate the opportunity to 
address the important issues raised by today's hearings on the 
need to strengthen information security.
    The Visa payment system, of which Visa USA is a part, is 
the largest consumer payment system in the world, with more 
volume than any other payment system and, indeed, with all 
other payment systems combined. We play a pivotal role in 
advancing new payment product and technologies, including 
technology for protecting personal information and preventing 
identity theft and fraud.
    Visa commends the subcommittee for focusing today on this 
important issue. As the leading consumer electronic payment 
system, Visa considers it a top priority to remain a leader in 
the development of services and technologies that protect 
information and protect consumers from the consequences of 
information security breaches.
    We have long recognized the importance of strict internal 
procedures to protect the customer information that is housed 
within Visa's databases and the databases of our members.
    We have a strong incentive to have a good security 
proceedings in place. The Visa system provides for zero 
liability for cardholders when unauthorized transactions take 
place. Cardholders are not responsible for the unauthorized use 
of their card. This Visa zero-liability policy guarantees the 
maximum protection for Visa cardholders against fraud.
    And because the financial institutions within the Visa 
system do not hold their cardholders responsible for that 
unauthorized fraud, Visa institutions incur costs. These costs 
include the direct costs of fraud, the credit that is not 
repaid, and can also be in the form of indirect costs 
attributable to the harm of consumers and to merchants 
generally. Accordingly, Visa protects the customer information 
of its members vigorously.
    We are currently implementing a comprehensive and 
aggressive consumer information security program. It is called 
a cardholder information security program. Its acronym is CISP. 
This security program applies to all entities, including 
merchants that store, process, transmit or hold Visa cardholder 
data and covers enterprises that operate through brick-and-
mortar operations, mail and telephone order operations, or 
through the Internet.
    CISP was developed to ensure that the customer information 
that Visa's members have got is kept protected and secure. CISP 
includes not only data security standards but also provisions 
for monitoring compliance and sanctions for failure to comply.
    As part of CISP, Visa requires all participating entities 
to comply with our Visa ``Digital Dozen,'' 12 basic security 
requirements for safeguarding accounts. These include to 
install and maintain a working firewall to protect data.
    Do not use vendor supplies defaults for system passwords 
and security parameters. Protect stored data. Encrypt data sent 
across public networks. Use and regularly update anti-virus 
software. Develop and maintain secure systems and applications.
    Restrict access to data on a need-to-know basis. Assign a 
unique I.D. to each person with computer access. Restrict 
physical access to data. Track all access to network resources 
and data. Regularly test security programs and processes. And 
implement and maintain an overall security program.
    For the largest companies, for those companies that process 
more than 6 million Visa transactions per year, we require an 
annual on-site audit, validated by an independent security 
assessor, or in the alternative, an internal audit signed off 
by an officer of the company.
    We also require quarterly network scans validated by a 
qualified, independent scan vendor. Visa provides lists of 
recommended security assessors, scan vendors, and software 
providers for the use of merchants and others who have the need 
for that service.
    Visa takes enforcement action against companies that do not 
implement adequate security. Visa members are subject to fines 
of up to $500,000 per incident for any merchant or service 
provider that is comprised and is not compliant with our CISP 
program at the time of the incident.
    Visa is not the only organization that has developed 
security standards. In order to avoid the potential for 
conflicting requirements on merchants and others, in December 
of 2004, Visa, MasterCard, American Express, Discover, and 
Diner's Club collaborated to align our data security 
requirements for merchants and third parties.
    We found that the differences between these security 
programs were largely procedural, not substantive, and we had--
therefore we were able to integrate our CISP program into a 
common set of data security requirements without diluting the 
substantive measures that were already in place for information 
security.
    This new common set of data security standards is called 
the PCI standard. It invokes a common framework for four 
fundamental aspects of information security.
    First, it details technical requirements for the secure 
storage, processing and transmission of cardholder data. It 
contains common security auditing procedures. It enables 
participants to cross-recognize their respective certification 
programs for vendors. And fourth, it allows for the 
restructuring of the program so that each has similar merchant 
and service-provider validation requirements.
    This new alignment allows merchants and service providers 
to select one vendor and implement a single process to comply 
with all of the payment card requirements. Instead of 
fragmenting their resources to satisfy separate requirements, 
this standard allows merchants and service providers to focus 
on achieving a common objective, namely the robust and 
continuously updated security programs that we all want.
    In addition to the CISP program, Visa uses sophisticated 
neural networks that flag unusual spending patterns for fraud. 
And you block the authorization of transaction where fraud is 
suspected.
    When cardholder information is compromised, Visa notifies 
the issuing financial institution. We put the affected card 
numbers on a special monitoring status. And if Visa detects any 
unusual activity in that group of cards, we again notify the 
issuing institutions who begin a process of investigation and 
card re-issuance.
    Mr. Chairman, I have some additional information about 
programs that Visa has in place for identity theft. And I 
respectfully request that that information be made part of the 
record of this hearing.
    Mr. Rogers. Without objection, it is.
    Mr. MacCarthy. Thank you for this opportunity to testify, 
and I am prepared to answer any questions you may have.
    [The statement of Mr. MacCarthy follows:]

  Prepared Statement of Mark MacCarthy, Senior Vice President, Public 
                            Policy, VISA USA

    Mr. Chairman, my name is Mark MacCarthy. I am Senior Vice President 
for Public Policy for Visa U.S.A. Inc. Visa appreciates the opportunity 
to address the important issues raised by today's hearing on the need 
to strengthen information security.
    The Visa Payment System, of which Visa U.S.A. is a part, is the 
largest consumer payment system, and the leading consumer e-commerce 
payment system, in the world, with more volume than all other major 
payment cards combined. Visa plays a pivotal role in advancing new 
payment products and technologies, including technology initiatives for 
protecting personal information and preventing identity theft and other 
fraud.
    Visa commends the Subcommittee for focusing on the important issue 
of information security. As the leading consumer electronic commerce 
payment system in the world, Visa considers it a top priority to remain 
a leader in the development of technology, products, and services that 
protect consumers from the effects of information security breaches. As 
a result, Visa has long recognized the importance of strict internal 
procedures to protect the customer information of Visa's members, 
thereby protecting the integrity of the Visa system.
    Visa has substantial incentives to maintain strong security 
measures to protect customer information and the Visa system overall. 
The Visa system provides for zero liability to cardholders for 
unauthorized customer transactions. Cardholders are not responsible for 
unauthorized use of their cards. The Visa Zero Liability policy 
guarantees maximum protection for Visa cardholders against fraud due to 
information security breaches. Because the financial institutions that 
are Visa members do not impose the losses for fraudulent transactions 
on their cardholder customers, these institutions incur costs from 
fraudulent transactions. These costs are in the form of direct dollar 
losses from credit that will not be repaid, and also can be in the form 
of indirect costs attributable to the harm and inconvenience that might 
be felt by customers or merchants. Accordingly, Visa aggressively 
protects the customer information of its members.

Visa's Cardholder Information Security Plan
    Visa is currently implementing a comprehensive and aggressive 
customer information security program known as the Cardholder 
Information Security Plan (``CISP''). This security program applies to 
all entities, including merchants, that store, process, transmit, or 
hold Visa cardholder data, and covers enterprises operating through 
brick-and-mortar stores, mail and telephone order centers, or the 
Internet. CISP was developed to ensure that the customer information of 
Visa's members is kept protected and confidential. CISP includes not 
only data security standards but also provisions for monitoring 
compliance with CISP and sanctions for failure to comply.
    As a part of CISP, Visa requires all participating entities to 
comply with the ``Visa Digital Dozen''--twelve basic requirements for 
safeguarding accounts. These include: (1) install and maintain a 
working network firewall to protect data; (2) do not use vendor-
supplied defaults for system passwords and security parameters; (3) 
protect stored data; (4) encrypt data sent across public networks; (5) 
use and regularly update anti-virus software; (6) develop and maintain 
secure systems and applications; (7) restrict access to data on a 
``need-to-know'' basis; (8) assign a unique ID to each person with 
computer access; (9) restrict physical access to data; (10) track all 
access to network resources and data; (11) regularly test security 
systems and processes; and (12) implement and maintain an overall 
information security policy.

Audits
    For the largest companies, those who process more than 6 million 
Visa transactions per year, we require an annual on-site audit 
validated by an independent security assessor, or an internal audit 
signed by an officer of the company. Visa also requires quarterly 
network scans validated by a qualified independent scan vendor. Visa 
provides lists of recommended security assessors, scan vendors, and 
software providers.

Sanctions
    Visa takes enforcement action against companies that do not 
implement adequate security. Visa members are subject to fines, up to 
$500,000 per incident, for any merchant or service provider that is 
compromised and not CISP-compliant at the time of the incident.

Payment Card Industry Data Security Standard
    Visa is not the only credit card organization that has developed 
security standards. In order to avoid the potential for imposing 
conflicting requirements on merchants and others, in December of 2004, 
Visa, MasterCard, American Express, Discover, and Diners Club 
collaborated to align their respective data security requirements for 
merchants and third parties. We found that the differences between 
these security programs were more procedural than substantive. 
Therefore, Visa has been able to integrate CISP into a common set of 
data security requirements without diluting the substantive measures 
for information security already developed in CISP. Visa supports this 
new, common set of data security requirements, which is known as the 
Payment Card Industry Data Security Standard (``PCI Standard'').
    The PCI Standard provides a common framework that encompasses four 
fundamental aspects of information security:
        <bullet> Technical Foundation: The PCI Standard details 
        technical requirements for the secure storage, processing, and 
        transmission of cardholder data.
        <bullet> Testing Methodologies: The PCI Standard promotes the 
        development of common security auditing procedures, scanning 
        procedures, and provides a common security Self-Assessment 
        Questionnaire.
        <bullet> Vendor Certification: The PCI Standard enables 
        participants to cross-recognize their respective certifications 
        for vendors. In particular, MasterCard has agreed to recognize 
        Visa-approved onsite security assessors, and Visa will 
        recognize MasterCard security scan vendors.
        <bullet> Compliance Validation: The individual security 
        programs maintained by payment card systems, such as Visa's 
        CISP or MasterCard's security program, have been restructured 
        within the framework of the PCI Standard so that each has 
        similar merchant and service provider-levels and validation 
        requirements.
    The new alignment of security standards under this framework allows 
merchants and service providers to select one vendor and implement a 
single process to comply with all payment card data security programs. 
Instead of fragmenting their resources to satisfy separate 
requirements, the PCI Standard allows merchants and service providers 
to focus on achieving a common objective: robust and continuously 
upgraded security programs.
    Neural Networks to Detect Fraud and Block Potentially Unauthorized 
Transactions
    In addition to the CISP program, Visa uses sophisticated neural 
networks that flag unusual spending patterns for fraud and block the 
authorization of transactions where fraud is suspected. When cardholder 
information is compromised, Visa notifies the issuing financial 
institution and puts the affected card numbers on a special monitoring 
status. If Visa detects any unusual activity in that group of cards, we 
again notify the issuing institutions, who begin a process of 
investigation and card re-issuance.
    Mr. Chairman, Visa has additional information about its programs to 
prevent identity theft and to aid customers to recover from identity 
theft. I respectfully request that information relating to these 
programs, and to the programs which I have described in my testimony, 
be included in the record of this hearing.
    Thank you, again, for the opportunity to present this testimony 
today. I would be happy to answer any questions.

    Mr. Rogers. Thank you, Mr. MacCarthy, for your testimony.
    The chair now recognizes Mr. Mark Zwillinger, partner at 
Sonnenschein, Nath and Rosenthal, for his opening statement.

   MR. MARC J. ZWILLINGER, ISSP NATIONAL CHAIR, INFORMATION 
            SECURITY AND INTERNET ENFORCEMENT GROUP

    Mr. Zwillinger. Thank you.
    Chairman Rogers and Ranking Member Meek, thank you for 
inviting me to speak with you today on the topic of 
strengthening information security at DHS. As you know, I am a 
former computer crime prosecutor from the Department of 
Justice, and I now run the information security and enforcement 
practice at Sonnenschein, Nath and Rosenthal.
    In my legal practice, I help private-sector clients develop 
and implement information security programs and effective 
instant response plans. My clients come from a variety of 
industries, and they include major financial institutions, 
Internet service providers, satellite broadcasters, and 
traditional media publishers.
    In addition to my client work, I have participated in two 
efforts to help secure the nation's critical infrastructure. 
First, I served on the National Academies' Committee on 
Critical Infrastructure Protection and the Law, and most 
recently, I served on the Corporate Information Security 
Working Group, which provided advice to the House Committee on 
Government Reform.
    But I sit before you today not on behalf of my clients but 
to use my information security experience from the private 
sector to try to be helpful on the topic of strengthening DHS' 
information security programs. With that goal, I would like to 
share some lessons that I have learned from my experience in 
the private sector.
    First, we all understand that government computer systems 
are attractive targets for a variety of reasons, the critical 
nature of the information stored on the systems, the potential 
for serious disruption of government operations, and the 
continued inadequacy of security controls at many agencies. Of 
course, only the last of these factors is completely within the 
government's control, and FISMA was supposed to bring 
improvement in this area.
    As you know, FISMA requires each federal agency to provide 
information security protections that are appropriate to the 
risk of harm that might result when a system is compromised. 
This same risk-based approach is found in almost all 
information security legislation and in all best-practices 
guides in the private sector.
    However, I have seen in the private sector that, no matter 
how valuable the information is that is contained on computer 
systems, a standard risk analysis is generally not sufficient 
to motivate true organizational commitment to security. 
Instead, such commitment is spurred by ancillary factors, such 
as the damage to the company's public reputation and possible 
financial harm that could result from such damage.
    In fact, one of the key reasons why some in the private 
sector are predisposed against legislation requiring notice in 
the event of a security breach is that, when the risk of a 
security breach includes the risk of public disclosure of that 
breach, the analysis virtually requires an investment in 
security for several reasons.
    First, the public disclosure alone would have the potential 
to tarnish a company's reputation, interfere with their 
customer relationships, and drive down their market value. 
Second, the public disclosure creates an increased potential 
for litigation, especially now, which threatens direct 
financial loss, as well as additional publicity.
    So if these types of consequences are necessary to change 
the risk calculus in the private sector, how do we change the 
risk calculus in the public sector? And it appears that FISMA 
report cards were designed to do just that. By making FISMA 
compliance public in a very simple-to-understand way, the goal 
was to use the negative stigma of receiving an F grade to bring 
about more positive results.
    However, without the marketplace effect, the risk of 
getting an F in the public sector is not nearly as threatening, 
and not, therefore, as motivational as a similar failure in the 
private sector, even though the consequence of a compromise at 
DHS could be a lot worse.
    One fix would be to seek to incentivize behavior in the 
same way as in the private sector. This might translate into 
responding to poor information security performance with 
stronger oversight or more exacting audits. It may also include 
tying security performance to the private sector equivalent of 
profit, mainly funding.
    A second lesson is that many of the security breaches I 
have seen recently have involved comprises of data given to 
third parties without a clear allocation of responsibility for 
security and for notification. On the whole, both the public 
and private sectors tend to worry far less about their data 
when it is given to others to manage, when the exact opposite 
should be true.
    Third, the importance of a proper incident-response program 
cannot be overstated. No set of policies, procedures, or 
practices can achieve a goal of making an agency completely 
secure. But my experience with the private sector suggests that 
organizations that aspire to have a robust incident-response 
program not only discover and address event before they become 
serious, but by following their plan and fixing the detected 
vulnerabilities, they can significantly improve their overall 
security posture.
    DHS' performance on the FISMA categories of tested 
contingency plans and effective security and privacy controls 
suggest that either the department's incident-response plan is 
lacking or its execution requires some improvement.
    Finally, Mr. Chairman, having read the testimony of DHS 
officials and listening to Mr. Cooper today, I think you would 
be hard pressed to find many security experts who would say 
that DHS is saying the wrong thing.
    Instituting a strategic plan, working to institute DHS 
policies throughout all of its organizational components, 
completing its inventory, and collecting and verifying metrics 
are steps in the right direction. Nevertheless, creating a true 
culture of security certainly remains an evolving challenge at 
DHS.
    My clients, who have been most successful in creating a 
culture of security, are easy to distinguish from those who 
have not. While most organizations have talented people 
attending to information security, the priorities have to be 
set from the top down and carried throughout the organization.
    For example, one of my clients, in addition to all of the 
information security policies and procedures they have, they 
bring in all of their product engineers from around the world 
for an annual multi-day conference on security issues, despite 
the time spent away from revenue-producing work.
    In my view, this conference is but one example of how that 
company gets it. For them, information security is not all 
about return on investment or liability prevention. It is an 
essential part of their product development lifecycle and their 
culture.
    For the sake of the country, I would hope that the same 
could be said about DHS in the very near future.
    Mr. Chairman, thank you for your leadership in convening 
this important hearing. I hope I can provide further help by 
answering your questions now or in the future.
    [The statement of Mr. Zwillinger follows:]

Prepared Statement of Marj J. Zwillinger, Partner, Sonnenschein Nath & 
                             Rosenthal LLP

    Chairman Rogers, Ranking Member Meek, and Members of the 
Subcommittee, thank you for the opportunity to address the Subcommittee 
on the important topic of Strengthening Information Security at the 
Department of Homeland Security

Background
    I have been a lawyer in the field of Information Security since 
1997 when I was a Trial Attorney at the United States Department of 
Justice Computer Crime and Intellectual Property Section.
    Since 2000, I have been leading an Information Security Legal 
practice at a national law firm. In my daily practice at Sonnenschein 
Nath & Rosenthal, I help private sector companies develop and maintain 
effective information security programs and incident response plans. 
While this may not be traditional legal work, I am not a traditional 
lawyer, as I am also a Certified Information Systems Security 
Professional and have training in computer forensics and network 
investigations.
    In addition to my work with private companies, I have been part of 
two efforts to provide ideas to help secure the nation's critical 
infrastructure. First, I served as a member of the National Academies' 
Committee on Critical Information Infrastructure Protection and the 
Law. Second, I had the privilege of being invited to participate as the 
sole independent lawyer on the Corporate Information Security Working 
Group, which advised the House Committee on Government Reform, 
Subcommittee on Technology, Information Policy, Intergovernmental 
Relations and the Census. As with my testimony here today, my 
participation in both of those efforts was not on behalf of any client, 
but was an attempt to use my experience of representing clients in the 
information security space to help our country better protect its 
information assets.
    Ironically enough, both of those prior efforts were geared towards 
finding better ways to motivate the private sector to protect the 
portions of the critical infrastructure under its control. However, now 
that a spate of industry-specific regulation and high-profile breaches 
of consumer information seem to be motivating the private sector to 
action, and given the Sarbanes-Oxley environment in which spending 
money on internal controls is becoming commonplace, it may be the 
public sector that could most benefit from additional attention.

About the Threats to Government Systems
    When I was a computer crime prosecutor, it was conventional wisdom 
among hackers that government agencies and educational institutions 
were the low-hanging fruit of the computer world. These entities 
presented attractive targets because of the bandwidth and power of the 
computer systems available, and because the security at both types of 
institutions was ineffective.
    When the focus of computer crime shifted away from the availability 
of computer resources to the market value of information stored on 
computer systems, the private sector became an interesting, and 
potentially lucrative, target.
    But while that shift may have diminished the interest in hacking 
university systems (except as we have recently learned for the purpose 
of identity theft), government systems remain an attractive target for 
several reasons:
        (1) the power and bandwidth of these computer systems;
        (2) the critical nature of the information stored on such 
        systems;
        (3) the potential for significant disruption of critical 
        government activities; and
        (4) the inadequacy of security controls at many government 
        agencies.
    Of these factors, only the fourth is completely within the 
government's control. And the Federal Information Security Management 
Act (FISMA) was designed to change the way government agencies 
addressed this fourth factor. FISMA requires the head of each federal 
agency to provide information security protections that are 
commensurate with the risk and magnitude of harm that might result from 
unauthorized access, use, disclosure, modification or destruction of 
the information contained on such systems.
Changing the Risk Calculation
    The same risk-based approach is contained in almost all information 
security legislation, regulations, and best practice guides that are 
used by the private sector, and always includes an assessment of the 
value of the information stored on the computer systems. What I have 
seen when counseling my private sector clients on information security 
issues, however, is that the motivation to improve information security 
relates not just to the value of the information at issue, but to 
several ancillary factors. In fact, private sector information may be 
less sensitive and present a lower risk of harm to the nation's 
security if compromised, but it is at times better protected than DHS 
information.
    The risk that is evaluated and, with increasing frequency, acted 
upon by private corporations is the damage to the corporation's public 
reputation and the financial harm that may result. In fact, one of the 
key reasons that the private sector is sometimes predisposed against 
security breach notification legislation, such as the bills already 
introduced in the 109th Congress, is that when the risk of compromise 
of a system becomes the risk of public disclosure of that compromise, 
the consequences virtually demand a significant investment in security 
by every right-minded CEO or CIO of a public company for several 
reasons.
    First, the public disclosure itself has the potential to drive down 
market value of a corporation. Second, disclosure of such breaches, 
irrespective of resulting harm, tarnishes the corporation's reputation 
and interferes with customer relationships. Third, the public 
disclosure of breaches also creates an increased potential of 
litigation, threatening direct monetary loss as well as additional 
adverse publicity and lower market value.
    As a result, these potential consequences are powerful enough to 
drive a corporation to invest in security even where the information 
stored is not as valuable as DHS data, because any breach directly 
threatens corporate financial results.

Lessons Learned
    First, as I have described, risk assessments that focus solely on 
the value of the information to be protected have often been 
unsuccessful on their own in motivating good information security 
behavior. Accordingly, external forces caused a change in the risk 
calculus. But how do you change the risk calculus for the public 
sector?
    FISMA report cards were designed to accomplish that objective. By 
identifying the agencies that were not meeting FISMA standards in a 
more public way than the detailed descriptions contained in the OMB 
reports, the associated stigma was intended to raise the profile of 
non-compliance, thereby creating incentive for action. However, absent 
a market value determination, the risk associated with receiving a 
failing grade is not nearly as catastrophic, nor as motivational, as it 
is in the private sector, even though the consequences of a compromise 
of DHS information may be greater.
    Accordingly, FISMA compliance, and public sector information 
security in general, could be bolstered by offering incentives based on 
what we have seen work in the private sector. This includes responding 
to poor information security performance with stronger oversight or 
more exacting audits, and rewarding good security practices with 
positive incentives. It may also include tying security performance to 
the private sector equivalent of profit, namely funding. While it may 
seem offensive to suggest that the threat of a loss of our nation's 
most sensitive and critical information is alone an insufficient 
incentive to improve information security, DHS's FISMA performance to 
date suggests that additional action may be warranted.
    The second lesson is that many, if not most, of the breaches to 
which I have responded in the past four years have included compromises 
of data that was placed in the hands of third parties without a clear 
allocation of responsibility for security issues, or procedures for 
notification and response in the event of a breach. Given that of all 
the issues identified in OMB's 2004 FISMA report, DHS fared the best on 
``using appropriate methods to ensure that contractor-provided services 
are adequately secure,'' perhaps the private sector has something to 
learn from the government in this regard. On the whole, however, both 
sectors tend to worry less about data maintained by others, when the 
exact opposite should be true.
    Third, as noted in the National Institute of Standards and 
Technology (NIST) Incident Handling Guidelines, ``an incident response 
capability is necessary for rapidly detecting incidents, minimizing 
loss and destruction, mitigating the weaknesses that were exploited, 
and restoring computer services.'' In my experience with the private 
sector, organizations that have a robust incident response program not 
only catch incidents before they become serious, but in executing the 
incident response plan and remediating the vulnerabilities that are 
detected as a result of the plan, achieve a much improved security 
posture. DHS' poor performance on the FISMA categories of ``tested 
contingency plans,'' and ``effective security and privacy controls,'' 
suggests that either the Department's incident response plan is 
lacking, or its execution requires improvement.
    Finally, Mr. Chairman, your Subcommittee would be hard-pressed to 
find too many security experts who would say that DHS is saying the 
wrong things. That is, instituting an Information Security Program 
Strategic Plan, working to institute DHS-wide policies within the 
organizational components, and collecting and verifying performance 
metrics are positive steps in the right direction. Nevertheless, the 
objective must be to create a culture of security within every 
organization, which clearly remains an evolving challenge in these 
early days of DHS.
    My clients who have been successful at creating a culture of 
security can be easily distinguished from those that have not. For 
example, one of my clients flies in all of its product engineers, 
located domestically or internationally, for an annual multi-day 
conference on security issues, despite the time spent away from 
revenue-producing activities. In my view, that company clearly ``gets 
it.'' Information security is not all about return on investment or 
liability prevention, rather, it is an essential component of their 
product development lifecycle and their culture. For the sake of the 
country, I would hope the same could be said about DHS in the very near 
future.
    Mr. Chairman, again, thank you for your leadership in convening 
this important hearing and I stand ready to be of further assistance 
through answering your questions now or in the days ahead.

    Mr. Rogers. Thank you, Mr. Zwillinger, Zwillinger. What is 
the correct pronunciation?
    Mr. Zwillinger. Zwillinger.
    Mr. Rogers. Zwillinger, for your testimony.
    I now have a couple of questions. And I would like to start 
with you.
    You were here for the first panel's testimony. And when you 
think about your clients that you deal with, what is the 
suggestion that you would offer this committee as a change that 
we could focus our attention on to remedy the problems that we 
are seeing reflected in this F grade?
    Mr. Zwillinger. Well, based on my experience with clients, 
I find that the organizations in companies that are able to 
really carry security throughout their organization have a very 
top-down approach. That is, the CIO or the chief information 
security officer is empowered throughout the organization to 
make sure that the organization is complying with security 
practices and carrying through with its mission.
    And I have not studied DHS long enough to know how deep a 
problem this is within the organization. I do note that when 
Frank Deffer testified before the House Committee on Government 
Reform, he pointed to a lack of formal reporting structure 
between the CIO and its organizational components. I do not 
know if that is the case or not at DHS, but I know that 
generally in the private sector that is an important feature, 
if the CIO can control the policies from the top down.
    Mr. Rogers. You heard reference earlier about the problems 
with inventory that are described as kind of the biggest 
challenge that DHS faces. Do you see a similar problem with 
getting your arms around inventory and applications on the 
inventory in the private-sector clients that you have, as was 
presented earlier by the DHS testimony?
    Mr. Zwillinger. Certainly, the clients I work with do 
conduct an inventory at the very beginning of a risk 
assessment, determining their assets and defining which assets 
are most critical. So I do see that that is a hurdle that most 
of my clients have to overcome.
    I cannot really comment on the length of time that it is 
taken DHS to conduct that inventory, but I do know that 
conducting inventory is an important first step and should be 
completed at the first stages of the security program.
    Mr. Rogers. Thank you.
    I would like to ask Mr. MacCarthy, what kind of management 
organizational structure and line of authority does Visa have 
in place to address information security issues?
    Mr. MacCarthy. We have a chief information officer who has 
full authority within Visa to make the decisions that he needs 
to make in order to ensure that the Visa system itself is safe 
and secure.
    Our program for spreading good security to the institutions 
outside Visa is under our risk control operation. And they work 
closely with the member banks within the Visa system, who in 
turn work closely with the merchants. Visa has every incentive 
to do the right thing with respect to information security.
    One of the things that--Mark's comments on the contrast 
between the private sector and the public sector deserves some 
emphasis. Why do we take these steps for information security 
within the Visa system and with respect to merchants? And the 
answer is, because fraud losses within our system fall on our 
members. And anything we can do to prevent the information 
security breaches means we minimize those fraud losses.
    We spend $300 million a year on information security and 
fraud control. And those kind of investments pay off. Our fraud 
rate is now down at the level of 5 cents for every $100, and it 
continues to go down year after year because of those 
investments.
    So I think one of the big contrasts between the public 
sector and the private sector here is the incentives that 
different companies have for practicing good information 
security.
    Mr. Rogers. Well, you make a good point in referring to the 
litigation, the exposure that you would have. But in response 
to that, I would say, do you have a formal reporting process in 
place for capturing known security weaknesses?
    Mr. MacCarthy. Absolutely. Within the Visa system itself, 
it is internal. And you know, we have regular audits of our own 
systems and any--
    Mr. Rogers. But is this written policy?
    Mr. MacCarthy. Yes, this is. Any deficiencies we catch, you 
know, we step in and correct right away. Within the Visa system 
itself, any breaches on the part of our financial institutions 
who are part of the Visa system, or on merchants, or processors 
who have cardholder information, they are required by contract 
to report those breaches to use immediately. And they are fined 
some other penalties that result for them not reporting those 
kind of breaches to us instantaneously.
    Mr. Rogers. Do you have outside audits of your security 
system?
    Mr. MacCarthy. Oh, yes, sir. Oh, yes.
    Mr. Rogers. Conducted by who?
    Mr. MacCarthy. I will get you the answer on that. There is 
an outsider auditor that we use for that purpose.
    Mr. Rogers. Great. Thank you both.
    The Chairman now yields to the Ranking Member, Mr. Meek.
    Mr. Meek. Thank you very much, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony. As you 
can tell, there are a number of members of the Congress that 
are very concerned about how we are exposed, I feel, to not--I 
mean, to negative forces that are out there, especially as it 
relates to homeland security.
    And I was--both of you, I was taking a look at your 
testimony here. And from what I heard, both of you are driven 
in the private sector. And I am pretty sure that you have taken 
a look at the GAO report. And to see the position, not only the 
Department of Homeland Security is in now, and you heard 
earlier testimony to the fact that it will be Groundhog Day 
next year, this time, if things are left up to the mechanics of 
the department and others.
    Looking at the position that the department is in, along 
with four or five other agencies of the federal government, and 
the federal government overall receiving a D-plus by our own 
eyes and ears, and looking at the tools that were used, where 
auditor generals basically ask questions to work with the IT 
officials within those departments. Pretty much, you are given 
a test, but you also have the opportunity to use whatever 
materials that you may find to answer the question.
    If there was a private sector company, let us just say, Mr. 
Z--
    [Laughter.]
    I was dying to say that. I know people--do people call you 
Mr. Z?
    Mr. Zwillinger. All the time.
    Mr. Meek. I know. It is just so cool.
    If there is a private-sector company in the position of the 
Department of Homeland Security, how long will it take that 
company to bring itself up to some sort of reasonable level 
that what we would find with using our measuring stick to bring 
it to a C or a B.
    How long would that take? Will that take an experience of 3 
or 4 years to improve its footprint, or will it take the time 
that we are being told that it would take for the department to 
bring itself up to standard?
    Mr. Zwillinger. It is a very difficult question for me to 
answer, one, because my clients are not generally of the size 
and scope of DHS, nor have they dealt with the integration of 
the equivalent of 42 subsidiaries, or what number of 
subsidiaries in a very short period of time.
    That being said, I have seen considerable progress in all 
of the clients that I have worked with in the security space 
from the time that I left DOJ and started practicing 
information security in 2000, you know, within a couple of 
years, if they have decided to invest significantly in 
security.
    So I understand the problems with DHS must be daunting. And 
I do not know that there is a real private sector analog that I 
can really draw upon to answer your question.
    Mr. MacCarthy. If I could comment, I think it is important 
not to overstate the extent to which the private sector is 
automatically doing the right thing in the area of information 
security. I think largely the incentives are aligned right, but 
it is important to remember that, that for many companies, 
information security is a cost.
    You have got to invest in the technology. You have got to 
invest in the time and training of your personnel. There is 
some loss of functionality in some cases.
    And you are protecting yourself against relatively rare 
events. And when the bad things do occur, there is a breach, 
you know, the costs are sometimes distributed. They do not fall 
just on the company involved, but they fall on other parties. 
So there is a kind of externality in that, where the market 
forces do not always automatically align to create, you know, 
perfect incentives to invest in information security.
    That is one reason why Visa stepped in with this CISP 
program, because we wanted to make sure that, when the fraud 
losses fall on our member financial institutions, but the 
security investments has to made by merchants and others who 
house the data, that there was some sort of private-sector 
mechanism involved that could try to internalize that market 
externality.
    We are aware that there are no rules and regulations under 
federal law or state law that require information security for 
merchants. And so we stepped into the breach to see what we 
could do to try to correct that particular difficulty.
    Mr. Meek. I guess, you know, gentlemen, where my concern 
comes in--as you know, the private sector--and you talk about 
reporting a little earlier as it relates to embarrassing for 
that private-sector company. We know that computers are hacked 
everyday. Some people are held up online literally for a price. 
And it goes unreported.
    It is not public knowledge, you know, the top-secret 
information and posture, and how our IT is so vulnerable in the 
federal level is not--I mean, it is common knowledge. We have 
things that you call exercises related to TOPOFF programs, 
intelligence information that is shared, not only with state 
and local government, but also with federal agencies within.
    Some may argue that there is a higher level of security as 
it relates to our information technology, the higher security 
level may go, but there are people who live to get that kind of 
information as it relates to national security.
    And you are right that this is the largest agency in the 
history of the world, I mean, as we live in it. But at the same 
time it is important as one of the most--the most able country, 
in my opinion, for us to be able to move forth. We have to. I 
mean, the Chairman, myself, the Ranking Member and the overall 
chair, we are going to be held ultimately responsible for being 
the Oversight Committee if we do not apply the pressure where 
it is needed.
    I was glad to see that the outgoing director of information 
technology to say, ``Keep the pressure on us.'' But how hard do 
you punch? I mean, do you punch with an answer or do you just 
punch for the sake of punching because someone has said that we 
are not where we need to be and the federal statutes call for 
greater?
    So anything that you gentlemen--there is only two of us 
here--so if there is anything you gentlemen can share with us 
that, if you were in the position that we are in right now, how 
could we improve?
    That was a question in the last panel, how can we help the 
department move faster? Congressman Sheila Jackson-Lee asked 
the question, ``Did we do something that we should not have 
done within the federal act?'' And there was legislation filed 
last session dealing with this subject, and there is 
legislation, I understand, that will be filed next week dealing 
with subject, too.
    So could you answer along those lines of what you see, as 
professionals in the area in question?
    Mr. Zwillinger. Sure. I have two points I think I can try 
to be helpful with.
    The first is that, when we started to try to protect the 
private-sector information security infrastructure, we started 
with industry-specific, you know, statutes. We started with 
Gramm-Leach-Bliley, and we started with HIPAA. And we said 
financial information is more important. Let us protect that. 
Health information is more important. Let us protect that.
    And then now, and only in 2004, have we had statutes of 
general applicability trying to get the rest of the country's 
information security up to a certain standard.
    It seems to me that there is no reason to treat all of the 
government's agencies the same. That is, when FISMA was passed, 
it separately treated national security systems as coming under 
sort of separate rules.
    I do not know--even if you are not a national security 
system, I still think there is a basis to distinguish between 
systems that are so critical to our nation's infrastructure and 
systems from other agencies that would score lower on the risk 
scale. And so more time, energy and resources could be devoted 
to dividing up systems, because it seemed to work in the 
private sector, to start with financial systems and then move 
on.
    The second point--and I think some of my clients would not 
like me to sort of admit this honestly, but it is true--is that 
the public disclosure requirement has really forced companies 
to spend more money on security than they might have planned, 
absent that requirement.
    That is, they said, ``The thing we really do not want to 
have happen is to have to make a public disclosure of this 
breach, so then we come vulnerable in the news, our trade value 
goes down, and the people who might want to sue us get wind of 
it.'' If we could figure out who at DHS, who DHS least wants to 
disclose security breaches to and force them to do it in the 
same way the private sector has done it, I would think you 
would have some of the same incentives of compliance that we 
see outside.
    Mr. Meek. But know what the unfortunate thing about that? 
That happens after the fact. I mean, there is some commission, 
like the 9/11 Commission, that is appointed and then folks 
start to come forward. ``Well, we knew this, but, you know, how 
do we say it?''
    And it is different, I think, for the private sector as it 
relates to national security. Of course, there is some 
information of it was stolen that could be very sensitive and 
could be detrimental to the--you know, could be seen as a 
security risk for the general public to know. But there has to 
be some bar.
    And I am looking within FISMA to see if such a requirement 
can, I mean, exist. Because I am pretty sure it is happened, 
just like it is happened in the private sector. And the more 
the public knows, the posture that we are in, hopefully, the 
faster that we can move.
    And I do not know if we can legislate that. That is what I 
am trying to get down to. There has to be a will.
    But I do not think folks are sitting around the department 
saying, ``Well, you know, this F means nothing to us, you know? 
And the public scrutiny within the IT world means nothing to 
us.''
    Because I know professionally in the private sector--Mr. 
Chairman, if I can--I know that professionally in the private 
sector that there are associations and groups that work 
together constantly in concert to make sure that the industry 
is secured.
    I do not know exactly if that is something that formally 
exists within the public sector. Maybe amongst local 
governments--I mean, a conference or something. But helping one 
another to be able to move the ball--because it is an ever-
changing issue as it relates to securing information, from what 
I have read.
    Last Congress, I served on the Subcommittee on 
Cybersecurity, and I started reading some of the publications 
that were published on it. And it is ever-changing. As you soon 
as you find the right combination to stop hackers from getting 
into the system or infiltrating the system, they find a new way 
to get in.
    Mr. MacCarthy. If I could jump in there for--I think you 
are right about the notification and other after-the-fact 
incentives not being perfect, because they rely on feedback 
loops. And you know, after the fact, it may be too late.
    So I think you need stuff up front. And that is why, when 
we put in place our program, it was designed to provide good 
security requirements at the beginning to see if we could make 
sure that the notification never had to be given because the 
security was there to begin with.
    I have two points. One is, one of the reasons our Visa CISP 
program is effective is that it is specific. You know, we are 
not trying to solve all security problems at once. We are 
focused on one, you know, relatively narrow problem.
    It has got a lot of aspects to it, but it is--how do you 
protect cardholder information? I think to that--if this is a 
recommendation to the rest of the world, it is find specific 
security problems and focus on what you think might be 
important to solve and solve those.
    In our experience, you know, two things seem to jump out as 
being effective. One, we found the role of independent audits 
to be very, very important. It focuses the attention of people 
who have to do good security on finding out that there are 
problems and then enabling them to take remedial steps right 
away.
    The other is, to the extent that we discovered problems 
with the payment application software where there was security 
flaws, we worked with outside assessors, discovered those 
flaws, worked with the vendors. We now have a program of 
approved, validated payment application software that merchants 
and other processors can use, which are free of the defects 
that we found in earlier versions of that kind of software.
    So some sort of validation program for software that is 
used seemed to be a very, very good program, from our point of 
view. And we think it is the kind of thing that, if you are 
looking for lessons learned, it is one of the lessons that we 
learned.
    Mr. Rogers. Thank you, gentlemen, both for your testimony 
and your answers, and, Mr. Meek, for your questions.
    There may be some additional questions that Members have. 
It is Thursday afternoon, and votes have completed, so they are 
on airplanes heading home right now. But they may have some 
additional questions that they will submit to you. I would ask 
you if you could respond to those in writing, if they do submit 
them. We are going to leave the record open for 10 days.
    For that, I thank you again for your testimony.
    And this committee meeting is adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
